U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




      THE IMMIGRATION AND
NATURALIZATION SERVICE’S REMOVAL
  OF ALIENS ISSUED FINAL ORDERS

                              Report Number
                                I-2003-004




                                 February 2003
                                      EXECUTIVE DIGEST


       Each year, millions of aliens attempt to enter the United States
without proper documentation, or enter legally but overstay or violate their
visas. In March 1996, we reported that the Immigration and Naturalization
Service (INS) was effective at removing detained aliens given final removal
orders by the Executive Office for Immigration Review (EOIR).1 We found
that the INS removed almost 94 percent of these individuals. However, we
also found that the INS was ineffective at apprehending and removing
nondetained aliens.2 The INS removed only 11 percent of our sample of
nondetained aliens ordered to leave the country. Our March 1996 review
contained five recommendations to improve the INS’s effectiveness at
apprehending and removing nondetained aliens.

       We conducted this current review to determine whether the INS had
improved its effectiveness at removing nondetained aliens with final orders,
and whether the INS actually implemented the actions it had agreed to take
in response to the five recommendations in our 1996 report. We found
that, since our 1996 report, the INS maintained its effectiveness at
removing detained aliens. However, the INS continues to be largely
unsuccessful at removing aliens who are not detained, removing only
13 percent of nondetained aliens with final removal orders.

      Moreover, we examined three important subgroups of nondetained
aliens and found that the INS was also ineffective at removing potential
high-risk groups of nondetained aliens. The subgroups we examined were
aliens:

         •   from countries that the U.S. Department of State identified as
             sponsors of terrorism – only 6 percent removed,

         •   with criminal records – only 35 percent removed, and

         •   who were denied asylum – only 3 percent removed.

      We also reviewed the INS’s implementation of the corrective actions it
agreed to take in response to our 1996 report, and we found that it failed to
take or complete corrective actions in a timely manner. In several

1   U.S. Department of Justice (DOJ), Office of the Inspector General, Immigration and
    Naturalization Service’s Deportation of Aliens After Final Orders Have Been Issued (Report
    No. I-96-03), March 1996.
2   Nondetained includes aliens who were never detained or who were detained but
    subsequently released.

U.S. Department of Justice                                                                       i
Office of the Inspector General
Evaluation and Inspections Division
instances, the INS acted to implement our recommendations only after the
September 11, 2001, terrorist attacks, although it had agreed to act much
sooner.

Results in Brief

       The INS remains effective at removing detained aliens. Both our
1996 report and a 1998 U.S. General Accounting Office (GAO) report
examined the INS’s removal of detained aliens with final orders, and these
reports found that the INS removed 94 and 92 percent of detained aliens,
respectively.3 Given the strong results reported in both reviews, we selected
a nominal sample of 50 cases of detained aliens ordered removed from
October 1, 2000 through December 31, 2001, and found that the INS
removed 92 percent (46 of 50). We also noted that the INS has increased
the number of aliens that it detains. We concluded that the INS continues
to effectively remove detained aliens.

      The INS remains ineffective at removing nondetained aliens. To
evaluate the INS’s effectiveness at removing nondetained aliens with final
orders, we analyzed a statistically valid random sample of 308 nondetained
aliens who received final removal orders from October 1, 2000 through
December 31, 2001. All of the aliens in our sample had exhausted or
waived all appeals, and could therefore have been removed by the INS. We
found that the INS removed only 13 percent (40 of 308) of the nondetained
aliens, which represents a marginal increase from the 11 percent removal
rate we reported in 1996.

      We also examined three important subgroups of nondetained aliens.
The subgroups were aliens from countries identified by the
U.S. Department of State as sponsors of terrorism, criminal aliens, and
aliens who were denied asylum.

         •   We found that the INS is even less successful at removing
             nondetained aliens from countries identified by the U.S.
             Department of State as state sponsors of terrorism. In 2001,
             seven countries received this designation: Cuba, Iran, Iraq, Libya,
             North Korea, Sudan, and Syria. During the period we reviewed,
             2,334 aliens from these countries were ordered removed. Of those
             aliens, 894 were nondetained. We examined a sample of 470 of


3   U.S. General Accounting Office (GAO), Criminal Aliens – INS’s Efforts to Remove
    Imprisoned Aliens Continue to Need Improvement (Report No. GGD – 99 – 03), October 16,
    1998, p. 11. In our 1996 evaluation, we found that the INS did not remove 100 percent
    of the detained aliens because of its inability to obtain travel documents, humanitarian
    and political limitations on removal, and outstanding criminal charges.

U.S. Department of Justice                                                                 ii
Office of the Inspector General
Evaluation and Inspections Division
              the nondetained cases and found that the INS removed only
              6 percent.

          •   We found that although the INS established the removal of
              criminal aliens as its first priority, it removed only 35 percent of
              the nondetained criminals in our sample. The INS removed 7 of
              the 20 criminals in our sample of 308 nondetained aliens.

          •   We found that the INS removed only 3 percent of the nondetained
              asylum seekers with final removal orders. The low removal rate
              for asylum seekers is a concern because this group may include
              potential terrorists who threaten our national security. We found
              that several individuals convicted of terrorist acts in the United
              States requested asylum as a part of their efforts to stay in the
              country. In our sample of 308 cases, 86 of the aliens applied for
              asylum but were denied. When we examined that subgroup, we
              found that the INS removed only 3 of the 86 (3 percent). That is a
              much lower removal rate than for nondetained aliens who did not
              seek asylum. The INS removed 37 of 222 (17 percent) of the
              nondetained aliens who did not seek asylum.

              The INS acknowledged to us that it places a low priority on
              removing nondetained denied asylum seekers with final orders.
              We are concerned that the INS does not actively pursue denied
              asylum seekers. Because that group may include potential
              terrorists, it would be imprudent to give them so little attention.

       The INS failed to implement corrective actions. An important
reason why the INS failed to improve its removal of nondetained aliens was
that the INS did not implement the actions it agreed to take in response to
our 1996 report in a complete or timely manner (see Appendix B). In
response to our report, the INS identified specific actions it would
implement and provided evidence to support the planned actions. We
accepted the INS’s proposed corrective actions as responsive to our
recommendations. However, our current review found that the INS did not
follow through on the corrective actions. For example:

      •   The INS agreed to improve its methods of notifying aliens of their
          duty to surrender for removal. Although the INS published a
          proposed rule, it did not consider the rulemaking a priority and
          allowed it to lapse.4 After the attacks of September 11, 2001, the INS
          revived and expanded the rulemaking, now titled Requiring Aliens
          Ordered Removed from the United States to Surrender to the

4   Federal Register, September 4, 1998, Volume 63, p. 47205.

U.S. Department of Justice                                                           iii
Office of the Inspector General
Evaluation and Inspections Division
          Immigration and Naturalization Service for Removal.5 As of
          January 2003, the rule still was not final.

      •   The INS agreed to conduct field tests to target for removal all aliens
          with final orders and informed us that a limited duration pilot project
          conducted at the Philadelphia field office had positive results. Based
          on those results, the INS told us that it was considering conducting
          tests at two additional field sites. However, the INS was neither able
          to provide any information regarding these pilot projects at any of the
          three locations, nor able to locate anyone who could remember the
          projects.

      •   The INS contracted with the Vera Institute of Justice to conduct a
          demonstration project to examine whether a supervised release
          program could improve court appearance rates for asylum seekers,
          criminal aliens, and undocumented workers.6 The final project
          report was issued on August 1, 2000, but as of December 2002, the
          INS had not acted on it or implemented any alternative actions to
          improve the removal rates for nondetained aliens.

      •   The INS agreed to use an FY 1996 budget enhancement of
          $11.2 million to fund 142 positions to remove alien absconders.7 It
          also agreed to use the INS’s Law Enforcement Support Center to
          enter alien absconder information into the National Crime
          Information Center (NCIC) and develop an automated list of criminal
          absconders for the law enforcement community. However, the INS
          did not establish absconder removal teams or develop an automated
          list of absconders until after September 11, 2001. Moreover, the INS
          was unable to document how it used the $11.2 million.

       The INS still faces the same problems we reported in 1996.
Several problems cited in our previous review still exist. Specifically, the
INS continues to: dedicate insufficient resources to removing nondetained
aliens, work with incomplete and inaccurate data in its electronic database,
and face external barriers to removing illegal aliens. We saw one example
of the effect of insufficient resources in the Absconder Apprehension
Initiative directed by the Deputy Attorney General in January 2002. As of
June 2002, the INS had not received the funding requested to permanently

5   Federal Register, May 9, 2002, Volume 67, p. 31157.
6   The Vera Institute of Justice is a private nonprofit organization that conducts original
    research and provides technical support for the design and implementation of programs
    to improve the provision of justice and the quality of urban life.
7   The INS defines absconders as aliens with unexecuted final orders of removal and whose
    whereabouts are unknown. Most absconders are nondetained aliens.

U.S. Department of Justice                                                                     iv
Office of the Inspector General
Evaluation and Inspections Division
assign staff to this important project. Because of the lack of dedicated
resources, the INS estimated it would take until 2005 or 2006 to enter into
the NCIC the case files of aliens with unexecuted final orders issued before
January 2002.

      We also noted that the INS dedicated most of its effort toward
removing criminal aliens. Although we do not question the need to remove
criminal aliens, the result of INS’s current approach is that little effort is
directed at the large number of non-criminal absconders who may also pose
a threat to the United States. The lack of resources allocated to pursuing
nondetained aliens is reflected in the low removal rate that we found in this
review.

       Our 1996 report also cited the lack of accurate address information
for aliens as an obstacle to their removal. Our interviews and recent
reports prepared by GAO and the INS Office of Internal Audit confirm that
the INS continues to face significant data accuracy problems. During this
review, we compared data from the INS’s and EOIR’s alien case tracking
and management systems and found name, nationality, and case file
number discrepancies, as well as cases missing from the electronic files.
The discrepancies occurred in 7 percent of the 308 case files of aliens with
final orders, and 11 percent of the sample of 470 aliens from state sponsors
of terrorism. According to the INS, data discrepancies are caused by data
entry errors, incompatibilities between the systems, and the lack of a
system for correcting data inconsistencies.

       In addition, the INS is improperly using its policy-closure provisions
to close cases of aliens who fail to appear for their removal hearing. We
found that the INS is still using the 1982 policy memorandum cited in our
1996 report to identify cases for policy-closure. However, we found that the
INS is not adhering to the direction for policy-closure identified in the 1982
policy memorandum. Once a case is policy-closed, the INS district office no
longer tracks the case or actively pursues the alien.

       There are also significant external barriers beyond the INS’s control
that can prevent the INS from carrying out removal orders. Executing
removal orders depends on the receiving countries accepting the return of
their citizens and issuing travel documents to accomplish the transfer.
These countries may not promptly process documents related to the
removal, may impose travel restrictions, or may refuse to accept the aliens.




U.S. Department of Justice                                                     v
Office of the Inspector General
Evaluation and Inspections Division
Conclusion and Recommendations

       As the INS prepares to move into the Department of Homeland
Security, it faces a significant challenge in determining how to address
long-standing deficiencies in its ability to apprehend and remove
nondetained aliens ordered removed from the United States. In 1996, we
reported that the INS was ineffective at removing nondetained aliens with
final orders from the United States, removing only 11 percent of the aliens.
This review documented that the INS remains fundamentally ineffectual at
meeting this challenge.

        Our review found that the INS has not improved its performance and
still removes only 13 percent of nondetained aliens with final orders. More
importantly, we found that the INS was even less effective at removing some
high-risk subgroups. The INS executed removal orders on only 6 percent of
the nondetained aliens from countries that the U.S. Department of State
has identified as sponsors of terrorism, and only 3 percent of denied
asylum seekers. Although the INS has established the removal of criminal
aliens as its highest priority, we found that the INS removed only
35 percent of nondetained criminals.

       We are making eight recommendations for the INS to better focus its
resources on prioritizing, apprehending, and removing nondetained aliens
with final removal orders. We recommend that the INS:

      1. Establish annual goals for apprehending and removing absconders
         and other nondetained aliens with final orders to achieve its strategic
         performance goal of removing 100 percent of aliens with final orders
         by 2012.8

      2. Identify the resources needed to achieve the above annual and
         strategic performance goals, and ensure that resources are applied to
         all case types.

      3. Ensure that resources provided for apprehending and removing alien
         absconders are tracked so that they are used only as intended.

      4. Complete the current rulemaking entitled Requiring Aliens Ordered
         Removed from the United States to Surrender to the Immigration and
         Naturalization Service for Removal.




8   U.S. Department of Justice, FY 2001 Performance Plan/FY 2002 Revised Final
    Performance Report/FY 2003 Performance Plan, Section 5.

U.S. Department of Justice                                                       vi
Office of the Inspector General
Evaluation and Inspections Division
      5. Update the policy, establish stronger controls, and provide guidance
         to ensure that policy-closure provisions are used only when
         appropriate.

      6. Establish a program to correct the problems with missing and
         inaccurate data in the Deportable Aliens Control System and work
         with the EOIR to reconcile discrepancies between the INS and the
         EOIR data systems.

      7. Implement a shared data system, similar to the Interagency Border
         Inspections System,9 for case tracking with the EOIR to identify and
         process aliens with final orders.

      8. Improve the utility of the INS’s website for informing the public about
         high-risk absconders and facilitate the reporting of leads on
         absconders.




9
    The Interagency Border Inspections System is an interagency effort by the INS, U.S.
    Customs Service, Department of State, and Department of Agriculture to improve border
    enforcement and controls and to facilitate the inspections of applicants for admission to
    the United States.

U.S. Department of Justice                                                                 vii
Office of the Inspector General
Evaluation and Inspections Division
                                  TABLE OF CONTENTS



PURPOSE, SCOPE, AND METHODOLOGY ............................................1

BACKGROUND ......................................................................................5

RESULTS OF THE INSPECTION ........................................................11

        The INS’s Effectiveness at Removing Aliens with Final Orders......11

                The INS Remains Effective at Removing Detained Aliens ....11

                The INS Remains Ineffective at Removing
                Nondetained Aliens............................................................12
                  Countries That Sponsor Terrorism.................................13
                  Criminals ......................................................................15
                  Asylum Seekers.............................................................15

                Recommendations for Removals.........................................16

        The INS’s Incomplete Implementation of the
        1996 Corrective Actions ..............................................................18

                Recommendations on Corrective Actions............................22

        Resource, Data, and Travel Document Problems
        Continue to Hamper the INS’s Removal Efforts............................23

                Recommendations on Data ................................................25

        Conclusion..................................................................................26

APPENDIX A: The Alien Removal Process ...................................... A-1

APPENDIX B: The INS’s Implementation of the 1996 OIG
Recommendations ............................................................................ B-1

APPENDIX C: Fugitive Operation Teams ........................................ C-1

APPENDIX D: List of Acronyms.......................................................D-1
                  PURPOSE, SCOPE, AND METHODOLOGY


      We conducted the current review to determine whether the
Immigration and Naturalization Service (INS) had improved its effectiveness
at removing nondetained aliens with final orders, and whether the INS took
the actions it agreed to in response to the five recommendations we made in
our 1996 report.

        The scope of this review included all aliens who received final orders
of removal from the Executive Office for Immigration Review (EOIR) during
a 15-month period from October 1, 2000 through December 31, 2001. The
EOIR’s Office of Information Resource Management provided us with a
database of all aliens issued final removal orders. In each case, the aliens
either had exhausted their appeals with the EOIR or did not appeal the
initial court decision. Each case included 86 data elements pertinent to
our report, including the alien’s name, file number (A-file number),
nationality, date of entrance, custody status, criminal and asylum statuses,
court appearance details, and final removal decision.

       The original EOIR database had 145,361 cases drawn from the
Automated Nationwide System for Immigration Review (ANSIR).10 Although
we did not independently assess the reliability of the ANSIR data in this
review, we did omit 2,678 duplicate or multiple cases.11 In addition, we
omitted 1,768 cases that were under appeal with the Office of Immigration
Litigation because the INS cannot execute a final order of removal while it is
under appeal. To maintain comparability with our 1996 sample, we did not
remove cases where Deferred Enforced Departure or Temporary Protected
Status might have prevented the INS from carrying out the removal
orders.12 Our final database totaled 140,915 cases.


10   ANSIR is the Information Resource Management System that provides the EOIR with
     case tracking and management information.
11   The INS creates a unique A-file number for each alien. However, duplicate cases in
     ANSIR allowed different aliens to share the same A-file number. Multiple cases in
     ANSIR had several different entry lines for the same alien with the same A-file number
     due to numerous court hearings and appeals, which could not fit into one data field.
12   Temporary Protected Status for Nationals of Designated States (P.L. 101-649)
     authorizes the U.S. Attorney General to temporarily exempt from removal aliens who
     are in a protected status because of instability in their country. In 2002, the TPS
     countries included: Sierra Leone, Burundi, Sudan, Montserrat, Kosovo, Nicaragua,
     El Salvador, Honduras, and Angola. Deferred Enforced Departure (Executive Order
     12711) was issued in 1990, by President George H.W. Bush to temporarily protect
     aliens from the People’s Republic of China from removal. Presidents William J. Clinton
     and George W. Bush, through Presidential Memoranda, granted this relief from removal
     to Haitians and Liberians in 1997 and 2001, respectively.

U.S. Department of Justice                                                                    1
Office of the Inspector General
Evaluation and Inspections Division
       In order to determine if statistical variations based on custody status
existed, we divided our final database into three categories: detained,
nondetained, and released. We found no significant differences in the data
trends for the nondetained and released categories; thus, we consolidated
our findings for these two groups into the overall category of nondetained.13
Since the ANSIR does not include information on the execution of final
orders, we relied on the INS’s Deportable Alien Control System (DACS) to
determine the removal status of cases for our samples.

        Although we did not independently assess the reliability of the data
in the DACS, the U.S. General Accounting Office (GAO) and the INS have
found significant problems with the DACS’s data reliability. In 1995, the
GAO evaluated the completeness and accuracy of criminal alien
information in the DACS by comparing electronic files and paper files.14
The GAO found that over 80 percent of the electronic files did not contain
all known aliases, 22 percent had name and nationality errors; e.g.,
misspelled, incorrect order, or incorrect nationalities, and 6 percent did not
have a matching paper file. While examining a judgmental sample of paper
files, the GAO found that 19 percent did not have a corresponding
electronic file in the DACS.

        In 2001, the INS Office of Internal Audit (OIA) issued a report entitled
Special Data Integrity Review-Alien Removals, which focused on final orders
of removal for both criminal and non-criminal aliens in order to asses the
adequacy of the process used to collect and report alien removal statistics.
The review identified and examined management controls in the data
collection process that help ensure full reporting, accurate recording, and
timely data entry. The OIA concluded that (1) there was no assurance that
all aliens in the removal process are entered in the DACS, (2) final alien
removal actions were not always recorded in the DACS, (3) there were
inadequate controls related to the accuracy of the DACS data, (4) there
were insufficient controls to ensure timely data entry, and (5) there was
insufficient training for the DACS users. The report concluded by stating,
“The lack of written standards to ensure the quality of data entered into the




13   The EOIR defines “detained” as an alien within INS, federal, state, or local custody, and
     “nondetained” as an alien never taken into INS custody or taken into custody and
     subsequently released. The INS does not categorize aliens as detained, nondetained, or
     released, but identifies them as criminals, non-criminals, expedited removals, and
     interior voluntary returns.
14   U.S. General Accounting Office (GAO), Law Enforcement Support Center: Name-based
     Systems Limit Ability to Identify Arrested Aliens (Report No. GAO/AIMD-95-147),
     August 1995, p. 8.

U.S. Department of Justice                                                                   2
Office of the Inspector General
Evaluation and Inspections Division
DACS and a process that does not lend itself to verification of data places
into question the accuracy and completeness of the data.”15

       We considered that the delays experienced by the INS in entering
case data into the DACS could affect our analysis if the outcomes of the
cases not yet entered were materially different from the outcomes of the
cases that were entered. However, the evaluations we reviewed did not
indicate that the backlogged cases were materially different from those that
had already been entered. Despite the problems with the DACS’s data
reliability found by the GAO and OIA, it is the sole source of case status
information for the INS’s statistical reports on removals. As long as the
DACS’s possible data unreliability was disclosed, we concluded that the
DACS’s data could be used for the purpose of determining the removal
status for our samples.

Sampling

       We selected three separate samples from the different categories of
aliens for our analyses. From the detained category, we selected a nominal
sample of 50 cases to test the removal rates reported in 1996 and 1998.
After finding a removal rate of about 92 percent, we decided that
conducting a full statistical sample was not necessary. From the
nondetained and released categories, we selected a random and statistically
valid sample of 308 cases, which allowed us to generalize our findings to
the entire population of nondetained aliens with final removal orders. To
maintain comparability with sampling done in 1996, we did not remove
Temporary Protected Status (TPS) or Deferred Enforced Departure (DED)
cases from the sample. Nonetheless, we examined the impact of removing
these cases and found it would have had no effect on the removal rate.

       We also examined the removal rate for nondetained and released
aliens from countries that the U.S. Department of State has identified as
sponsors of terrorism. We reviewed these cases because they are a high
priority for the Department of Justice.16 From this category, we selected a
judgmental sample of 470 nondetained cases. In our selection of
nondetained cases, we evaluated data for all of the aliens from Syria,
Sudan, Libya, and Iraq; 45 percent of the aliens from Iran; 38 percent of
the aliens from Cuba; and 54 percent of the aliens from North Korea.




15   DOJ, Immigration and Naturalization Service, Office of Internal Audit, Special Data
     Integrity Review: Alien Removals (Report No. 01-04), September 17, 2001, p. 7.
16   Department of Justice, FY 2001 – 2006 Strategic Plan, Chapter 2, Goal 1, p. 10.

U.S. Department of Justice                                                                 3
Office of the Inspector General
Evaluation and Inspections Division
Interviews

       During our evaluation, we conducted in-person and telephone
interviews with personnel from the INS’s Detention and Removal Office, the
Law Enforcement Support Center (LESC), Office of Investigations, Office of
General Counsel, Absconder Apprehension Initiative Office, Post-Order
Custody Review Unit, and Executive Office of Policy and Planning; officials
from the EOIR; staff from the Office of Immigration Litigation in the
Department of Justice Civil Division; and staff from the Executive Office for
United States Attorneys. We also used data from the FY 2000 and FY 2001
Statistical Yearbook of Immigration and Naturalization Service, INS budget
requests for FY 2000 through FY 2003, internal INS memoranda, a report
from the Vera Institute for Justice, GAO reports, the EOIR Statistical
Yearbook for FY 2000 and FY 2001, and transcripts of Congressional
testimony by INS officials. Finally, we reviewed the laws and regulations
applicable to the INS’s apprehension, detention, and removal of aliens with
final removal orders.




U.S. Department of Justice                                                  4
Office of the Inspector General
Evaluation and Inspections Division
                                      BACKGROUND


        Each year, millions of aliens attempt to enter the United States
without proper documentation, or enter legally but overstay or violate their
visas. Many of these aliens subsequently leave – from FY 1996 through
FY 2000, more than 7.8 million aliens departed voluntarily. However, many
illegal aliens remain in the country who could be removed under United
States immigration laws. According to the United States Census Bureau’s
2000 data, there were more than 8 million illegal aliens living in the United
States.

      The INS serves a dual role in which it both enforces United States
immigration laws and provides immigration benefits and services. Two
major INS programs carry out the enforcement role. The border
enforcement program is responsible for preventing unauthorized aliens
from entering the country, while the interior enforcement program
apprehends, processes, and removes illegal aliens from the United States.

       The task of identifying and removing illegal aliens from the United
States can involve other agencies. Aliens may be apprehended by officers
in the INS’s Investigations, Inspections, or Border Patrol offices; by staff of
the Detention and Removal (D&R) office; or, they may be detained by state
or local law enforcement officers. Other federal agencies that are frequently
involved in identifying, apprehending, or detaining aliens include the
Federal Bureau of Investigation (FBI), the United States Marshals Service
(USMS), the Federal Bureau of Prisons (BOP), and the Department of Labor.
Once illegal aliens are apprehended, it is the D&R’s responsibility to
process them through the system that determines whether they can stay or
whether they will be removed. Appendix A contains a detailed illustration
and discussion of this process. Over half (55 percent) of the 140,915 aliens
who were issued final orders by the EOIR from October 1, 2000 through
December 31, 2001 were detained (see Chart 1).

       The INS works with the EOIR to conduct the hearing process for
determining whether aliens should be removed. The INS charges aliens
with removal from the United States and begins proceedings by filing a
charging document with the EOIR. The EOIR, a component of the
Department of Justice that is separate and apart from the INS, is
comprised of the Office of the Chief Immigration Judge, the Board of
Immigration Appeals (BIA), and the Office of the Chief Administrative
Hearing Officer. The EOIR is responsible for adjudicating immigration
cases at both the trial level, before Immigration Judges and the appellate
level, before the BIA. The United States federal courts have jurisdiction
over certain decisions appealed from the BIA.

U.S. Department of Justice                                                   5
Office of the Inspector General
Evaluation and Inspections Division
                                  Chart 1
                   Aliens Issued Final Orders of Removal
                 October 1, 2000 through December 31, 2001




                45%


                                                                55%



                                      Detained - 77,961
                                      Nondetained - 62,954


    Source: OIG analysis of EOIR data.

Historical Trend of INS Removals

      Over the last 5 years, the INS formally removed an average of 97,338
aliens per year (Table 1).

                                           Table 1
                                       INS Removals
                              FY 1997 Through FY 2001
                                                                a
          Fiscal Year                                     Removed
             1997                                          91,190
             1998                                          97,068
             1999                                          91,485
             2000                                          99,691
             2001                                         107,254
             Total                                        486,688
Source: 2001 Statistical Yearbook of INS, p. 235.
a
    Includes removals executed through orders of deportation, exclusion, and removal.
    Excludes expedited removals as well as confirmed voluntary departures.




U.S. Department of Justice                                                              6
Office of the Inspector General
Evaluation and Inspections Division
     However, many aliens ordered to leave do not comply with their
removal orders. As of June 2002, the INS estimated that there were about
355,000 aliens with unexecuted removal orders.17

1996 OIG Evaluation Reported the INS Was Ineffective at Removing
Nondetained Aliens

      In March 1996, the OIG reported a large disparity between the
removal rates of detained aliens compared to nondetained aliens with final
removal orders. Through a review of 1,058 sample case files, we found that
94 percent of detained aliens, but only 11 percent of nondetained aliens,
had left or been removed from the United States.

     Due to the disparity between the number of detained and
nondetained aliens removed, we made five recommendations to the INS to
improve its processing of nondetained aliens, including:

         1. Move more quickly to present surrender notices to aliens after
            receiving final orders.
         2. Deliver surrender notices instead of mailing them to aliens.
         3. Take aliens into custody at the hearings when final orders are
            issued.
         4. Pursue aliens who fail to appear and review procedures for closing
            cases for aliens who fail to appear.
         5. Coordinate with other governmental agencies to make use of all
            available databases to track aliens who fail to appear.

      The INS concurred with recommendations 1 and 5, and partially
concurred with recommendations 2, 3, and 4. The INS proposed alternative
actions to meet the intent of recommendations 2, 3, and 4, which we
accepted. Between March 1997 and October 2000, the INS reported to the
OIG that it had taken the actions it proposed for four of the
recommendations. Consequently, we closed recommendations 1, 3, 4, and
5. As of January 2003, the INS had not provided final information on
action related to recommendation 2, and that recommendation remains
open. For this review, we assessed the INS’s implementation of each of the
corrective actions (see Appendix B for the detailed results of our
assessment).




17   The INS Office of Policy and Planning, November 15, 2002.

U.S. Department of Justice                                                   7
Office of the Inspector General
Evaluation and Inspections Division
Changes in Immigration Law and Enforcement Since 1996

       Since our 1996 review, a number of important events have affected
how the INS apprehends and removes illegal aliens. These include a major
revision of U.S. immigration laws by Congress in September 1996, a new
INS interior enforcement strategy, a Supreme Court ruling that affects the
INS’s ability to detain aliens pending their removal, and several INS removal
initiatives. Most recently, on November 25, 2002, the President signed into
law the Homeland Security Act, which directs that the INS and its functions
be moved from the Department of Justice into a new Department of
Homeland Security (DHS) in March 2003. Each of these events is
discussed briefly below:

        •    The Illegal Immigration Reform and Immigrant Responsibility Act
             of 1996 (IIRIRA). The IIRIRA amended and reformed the
             Immigration and Naturalization Act of 1952 (P. L. 82-414) and
             other existing immigration laws, including making a significant
             change to deportation and exclusion procedures. Prior to 1996,
             aliens arriving at ports of entry with improper or fraudulent
             documents were often allowed to enter the United States while
             awaiting court proceedings to determine their admissibility. Those
             aliens not held in custody frequently absconded and remained in
             the United States. IIRIRA allowed the INS to refuse entry to aliens
             without processing them through the immigration courts under a
             new authority termed “expedited removal.” There were 69,730
             expedited removals in FY 2001. IIRIRA also increased detention
             requirements for certain categories of aliens, such as those that
             engaged in terrorist, criminal, drug trafficking, or immoral
             activities.

        •    Interior Enforcement Strategy. In 1999, the INS adopted a new
             Interior Enforcement Strategy, which established new priorities for
             the interior enforcement program to identify and remove criminal
             aliens; attack alien smuggling operations; respond to community
             complaints about illegal immigration; reduce benefit and
             document fraud; and make it more difficult for employers to hire
             illegal aliens. These priorities were based on the potential harm to
             the nation from the target group or activity; the cost; and the
             potential for the strategy to be effective, such as reducing the size
             of the problem, providing a deterrence, or benefiting communities.

        •    Zadvydas v. Davis, 121 U.S. 2491 (2001). In June 2001, the
             U.S. Supreme Court ruled that the INS may detain aliens under
             final removal orders only for a period reasonably necessary to

U.S. Department of Justice                                                       8
Office of the Inspector General
Evaluation and Inspections Division
             carry out their removal. The Court found that detention for up to
             six months after issuance of the final order was presumptively
             reasonable. After six months, aliens can request to be released by
             demonstrating that it is unlikely that they will be removed in the
             foreseeable future. Unless the INS can refute the alien’s claim by
             demonstrating that removal is pending, show that the alien
             contributed to the delays, or identify other reasons that bar
             release (such as suspected terrorist activities or danger to the
             community), the alien must be released.

             Before releasing these aliens, the INS reviews the cases to identify
             those in which travel documents may be available, removal
             practicable and in the public interest, and those in which aliens
             may be violent, pose a risk to the community, or pose a risk for
             violating their release conditions or fleeing. From January 2001
             through September 2002, the INS reviewed 1,710 cases and
             released 1,034 (60 percent) of the aliens.

         •   Fugitive Operations Teams. On October 26, 2001, the President
             signed the USA PATRIOT Act.18 Among its provisions, the USA
             PATRIOT Act authorized funding and positions to law enforcement
             agencies involved in combating terrorism. The INS subsequently
             received $5.3 million to apprehend, process, and remove fugitive
             aliens with final removal orders. In March 2002, the INS
             distributed the resources and instructed the Districts to proceed
             expeditiously in hiring and activating their teams. 19 According to
             the INS, the teams will apprehend fugitive aliens from countries to
             which they can be removed quickly. As of January 2003, the INS
             had announced the positions and was in the process of hiring staff
             for the teams.

         •   Absconder Apprehension Initiative (AAI). On January 25, 2002,
             the Deputy Attorney General directed the INS, FBI, USMS, and the
             United States Attorneys’ Offices to implement the AAI to target for
             removal the more than 300,000 absconders in the United States.
             The FBI and USMS were directed to assist the INS with
             apprehensions while the United States Attorneys, at the INS’s
             request, would prosecute absconder cases. Under the AAI,
             backlogged cases are reviewed and those containing sufficient
             biographical information are entered into the National Crime

18   P.L. 107-56, Uniting and Strengthening America by Providing Appropriate Tools
     Required to Intercept and Obstruct Terrorists (USA PATRIOT Act).
19   Memorandum from Anthony Tangeman, Deputy Associate Commissioner, INS Office of
     Detention and Removal, to Regional Directors, March 8, 2002.

U.S. Department of Justice                                                            9
Office of the Inspector General
Evaluation and Inspections Division
             Information Center (NCIC).20 As of December 2002, the INS
             reported that the AAI program had resulted in 2,070
             apprehensions and 522 removals. The AAI initially focused on
             absconders from countries with an active al Qaeda presence,
             followed by absconders with criminal records, and finally on non-
             criminal cases and cases of unverified voluntary departure.

         •   Department of Homeland Security (DHS). On November 25, 2002,
             President Bush signed into law the Homeland Security Act of
             2002. This law restructures the Executive branch of the Federal
             government by combining the functions of several agencies to
             better meet the threat posed by terrorism. The INS is among the
             agencies that will be transferred into the DHS on March 1, 2003.
             Once the INS is transferred, the immigration benefits and
             immigration law enforcement functions will be separated into the
             Bureau of Citizenship and Immigration Services, and the Bureau
             of Border Security.




20   The NCIC is a computerized index of criminal justice information (including, criminal
     record history information, fugitives, stolen properties, and missing persons)
     maintained by the FBI, which is available to Federal, state, and local law enforcement
     and other criminal justice agencies 24 hours a day, 365 days a year.

U.S. Department of Justice                                                                10
Office of the Inspector General
Evaluation and Inspections Division
                           RESULTS OF THE INSPECTION


THE INS’S EFFECTIVENESS AT REMOVING ALIENS
WITH FINAL ORDERS

        Although the INS remains effective at removing detained
        aliens, it continues to be largely unsuccessful at removing
        nondetained aliens, removing only 13 percent of those we
        sampled. Moreover, the INS was deficient at removing
        important subgroups, removing only 6 percent of the
        nondetained aliens from countries that sponsor terrorism,
        35 percent of nondetained criminal aliens, and only
        3 percent of nondetained aliens denied asylum.


The INS Remains Effective at Removing Detained Aliens

      Our 1996 report and a 1998 GAO report examined the INS’s removal
of detained aliens with final orders. The reviews found that the INS
removed 94 and 92 percent of detained aliens, respectively. As these
results demonstrate, detention enables the INS to remove most detained
aliens with final orders.

        In this review, we found that the INS increased the number of aliens
that it detained during the last seven years. The INS reported that the
average daily detention population increased substantially from 5,532 in
FY 1994 to 19,533 in FY 2001. The INS’s numbers of formal removals for
all aliens increased as well, from 45,165 in 1994 to 107,254 (66,827 of
whom were detained) in 2001.

      In order to determine if the high rate of removing detained aliens
reported in past reviews remained valid, we selected a nominal sample of 50
cases of detained aliens issued final orders in the period we reviewed. The
results of our sample mirror the results of previous OIG and GAO reviews.
We found that the INS removed 92 percent (46 of 50) of the detained aliens
from the United States. Of the four aliens that were not removed, two are
serving 10-year prison terms. Information on the other two aliens was not
available in their DACS files. Based on the consistency of our sample
results with prior reports, we concluded that the INS remains effective at
removing detained aliens, and further sampling or review of detainee
removals was not warranted.




U.S. Department of Justice                                                 11
Office of the Inspector General
Evaluation and Inspections Division
The INS Remains Ineffective at Removing Nondetained Aliens

       In dramatic contrast to the detained removal rate, the INS removed
only 13 percent of nondetained aliens with final removal orders.
We found it alarming that the INS was even less effective at removing
nondetained aliens from countries that sponsor terrorism, removing only
6 percent of those given final removal orders. For nondetained criminal
aliens, the INS removed 35 percent of the cases in our sample. While that
is a higher percentage than other nondetained categories, it is significantly
lower than the rate at which the INS removes detained aliens. For denied
asylum seekers, the INS removed only 3 percent of those given final
removal orders.

The INS Removed Only 13 Percent of Nondetained Aliens with Final Orders

      Of the 308 cases of nondetained aliens in our sample, the INS
removed only 40 (13 percent).21 While this is a marginal increase over the
11 percent removal rate for nondetained aliens found in our 1996 review,
the INS’s effectiveness at removing nondetained aliens remains extremely
low (Chart 2).

                                               Chart 2
                                       Aliens with Final Orders
                               Percent Removed vs. Percent Remaining

                                      89                   87

                          90
                          80
                          70
                          60
                Percent




                          50
                          40
                          30                                        13
                                            11
                          20
                          10
                          0
                                  FY 1996                 FY 2001
                                            Not Removed
                                            Removed
               Source: OIG Analysis of EOIR and DACS data.


21   Removals include both aliens removed directly by the INS and verified voluntary
     departures.

U.S. Department of Justice                                                             12
Office of the Inspector General
Evaluation and Inspections Division
       When aliens fail to appear for their removal proceedings, the
Immigration Judge can order them removed in absentia or administratively
close their case.22 We examined the in absentia rate within our sample of
308 nondetained cases and found that 204 (66 percent) of the aliens failed
to appear for their removal proceedings and were ordered removed
in absentia. We examined the correlation between removals and court
attendance and found that the aliens’ failure to appear before the
Immigration Judge at removal proceedings is a significant and strong
negative indicator for the likelihood of removal by the INS. Of the 204
aliens ordered removed in absentia, only 14 had been removed, a removal
rate of 7 percent. In contrast, 26 of the 103 aliens who attended the
hearing where they received their removal order had been removed, a rate
of 25 percent.

The INS Removed Only 6 percent of Nondetained Aliens from Countries that
Sponsor Terrorism

       Since 1995, the U.S. Department of State has identified countries
that are state sponsors of terrorism. As of 2001, the seven countries
designated as sponsors of terrorism were: Cuba, Iran, Iraq, Libya, North
Korea, Sudan, and Syria. During the period we reviewed, the EOIR issued
final removal orders to 2,334 aliens from these countries, or about
2 percent of the total number of aliens issued final orders in our sample
period (Table 2).




22   The in absentia designation means the aliens received proper notification of the time
     and date of their removal proceedings but did not attend. Administrative closures occur
     when an alien fails to appear for the removal proceeding and the Immigration Judge is
     not satisfied that the INS notified the alien of the date and time of the proceeding.
     Thus, the judge does not order the alien removed in absentia but administratively closes
     the alien’s case.

U.S. Department of Justice                                                                13
Office of the Inspector General
Evaluation and Inspections Division
                                      Table 2
                     Aliens From Countries That Sponsor Terrorism
                            Who Were Ordered Removed
                    October 1, 2000 through December 31, 2001
        Country                 Total         Percentage    Detained     Nondetained
  1. Cuba                        1,733            74.3%       1,293            440
  2. Iran                             318         13.6%          67            251
  3. Iraq                             78           3.3%          32            46
  4. Libya                              4          0.2%           2              2
  5. North Korea                      27           1.2%           1            26
  6. Sudan                            84           3.6%          17            67
  7. Syria                             90          3.9%          28            62

               TOTAL:            2,334            100%*       1,440            894
Source: OIG analysis of EOIR data
 * Does not add to 100 percent due to rounding.


       We reviewed the rate at which the INS removed aliens from these
countries to determine whether the INS had effectively addressed these
high-risk cases. In our judgmental sample of 470 nondetained aliens with
final removal orders, we found that only 30 of the 470 nondetained aliens
from countries identified as sponsors of terrorism had been removed – a
rate of only 6 percent (Table 3).

                                     Table 3
                     Removal of Nondetained Aliens From Countries
                                That Sponsor Terrorism
                     October 1, 2000 through December 31, 2001
                                             Number
                     Country                               Removed     Percentage
                                            Reviewed
                 1. Cuba                          165        1            1%
                 2. Iran                          114       11           10%
                 3. Iraq                          46         4            9%
                 4. Libya                           2        0            0%
                 5. North Korea                   14         3           21%
                 6. Sudan                         67         1            1%
                 7. Syria                          62       10           16%

                          TOTAL:          470        30 (6%)
             Source: OIG analysis of EOIR and DACS data.



U.S. Department of Justice                                                             14
Office of the Inspector General
Evaluation and Inspections Division
      Two important factors affected the removal rate in our sample of
nondetained aliens from countries that sponsor terrorism. First, over
35 percent came from Cuba, which has no formal diplomatic relations with
the United States. It is difficult for the INS to obtain travel documents for
aliens from nations that have poor or no diplomatic relations with the
United States. Second, 14 percent came from the Sudan. Some Sudanese
aliens may be eligible for Temporary Protected Status (TPS). Aliens eligible
for TPS are exempt from removal while in a protected status (Appendix A).
However, we found that only 5 of the 67 (7 percent) Sudanese aliens in our
sample either applied or were granted TPS.

      Although some Sudanese nationals may be eligible for TPS, the
Sudan remains a high-risk country. Al Qaeda located its headquarters in
the Sudan from 1991 until 1996, and the FBI reported that al Qaeda
provided military and intelligence training in the Sudan.23 Sudanese
nationals have been involved in terrorist activity in the United States. In
1995, five Sudanese nationals were convicted of seditious conspiracy,
bombing conspiracy, and attempted bombing.24 Finally, the Sudan
remains on the U.S. Department of State’s list of countries known to
sponsor terrorism. Consequently, Sudanese aliens with final orders should
not be overlooked solely because of their potential eligibility for TPS.

The INS Removed Only 35 Percent of Nondetained Criminals

       Because the INS established the removal of criminals as its first
priority in its Interior Enforcement Strategy, we examined its success at
removing nondetained criminal aliens. Within our sample of 308
nondetained aliens with removal orders, we found 20 cases where the alien
was charged as a criminal before the EOIR. Of those 20, the INS removed 7
(35 percent). While 35 percent is better than the 13 percent overall removal
rate for nondetained aliens, it nonetheless reflects a low removal rate for
potentially dangerous aliens. This suggests that the INS is ineffective in
removing nondetained aliens even when the aliens are criminals.

The INS Removed Only 3 Percent of Nondetained Asylum Seekers

     Finally, we reviewed the effectiveness of the INS at removing
nondetained aliens who applied for asylum but were denied and ordered
removed. We found that this group was removed at the lowest rate of any

23   Congressional Statement of J.T. Caruso, Federal Bureau of Investigation, Counter
     Terrorism Division, before the Subcommittee on International Operations and
     Terrorism, Committee on Foreign Relations, U.S. Senate, December 18, 2001.
24   18 U.S.C. 2384 allows the Government to charge defendants under the seditious
     conspiracy statute, which criminalizes agreements to wage war against the United
     States and to oppose government authority by force.

U.S. Department of Justice                                                              15
Office of the Inspector General
Evaluation and Inspections Division
subgroup we examined. In our sample of 308 cases, we found that only
3 percent (3 of 86) of the nondetained denied asylum seekers with final
orders were removed. In comparison, the INS removed 17 percent (37 of
222) of the nondetained aliens who did not apply for asylum. We also
found a 3 percent removal rate for nondetained asylum seekers from
countries that sponsor terrorism. Of the 470 nondetained aliens from
states that sponsor terrorism, 259 had requested asylum and been denied,
and the INS removed only 9. The INS confirmed that it places a low priority
on executing removal orders on aliens who are denied asylum.

      Although we are not suggesting that all asylum applicants are
potential terrorists, we found several asylum applicants who had committed
or planned terrorist acts in the United States while they were awaiting their
asylum determinations (see Table 4, next page).

       Because the apprehension and removal of aliens denied asylum
and ordered removed is a low priority with the INS, had these individuals
completed the asylum application process and been given final removal
orders, it is unlikely the INS would have carried them out. Therefore, it
is possible for high-risk aliens who would not otherwise be able to enter
or reside in the United States to exploit this weakness. The INS should
not overlook asylum seekers when pursuing nondetained aliens with
final removal orders.

Recommendations

We recommend that the INS:

     1. Establish annual goals for apprehending and removing absconders
        and other nondetained aliens with final orders to achieve its strategic
        performance goal of removing 100 percent of aliens with final orders
        by 2012.25

     2. Identify the resources needed to achieve the above annual and
        strategic performance goals, and ensure that resources are applied to
        all case types.




25   DOJ, FY 2001 Performance Plan/FY 2002 Revised Final Performance Report/FY 2003
     Performance Plan, Section 5.

U.S. Department of Justice                                                            16
Office of the Inspector General
Evaluation and Inspections Division
                                       Table 4
                          Terrorists Who Applied for Asylum

       Ahmad Ajjaj and Ramzi Yousef – These individuals entered the
       United States seeking asylum in 1991 and 1992, respectively. In
       1993, they helped commit the first World Trade Center bombing
       which killed six people. Ajjaj left the country and returned in 1992
       with a fraudulent passport. He was convicted of passport fraud and
       did not complete the asylum process prior to his conviction. Yousef
       completed the required INS paperwork and was given a date and
       time for his asylum hearing; however, his application was pending
       when the World Trade Center was bombed.

       Sheik Umar Abd ar-Rahman – Abd ar-Rahman sought asylum to
       avoid being deported to Egypt. He helped plan a “day of terror” for
       June 1993 in which New York City landmarks such as the United
       Nations’ building, the FBI’s Headquarters in lower Manhattan, and
       the Lincoln and Holland Tunnels were to be bombed.

       Hesham Mohamed Hadayet – Hadayet applied for asylum in 1992,
       telling the INS that Egyptian authorities falsely accused and
       arrested him for being a member of the Islamic Group Gama’a al-
       Islamiyya, which is on the U.S. Department of State’s Foreign
       Terrorist Organizations list. The INS denied his asylum request and
       Hadayet was placed in removal proceedings. After Hadayet did not
       receive the notice of his immigration hearing date due to an
       incorrect mailing address, the EOIR terminated the proceeding. On
       July 4, 2002, Hadayet shot and killed two people at the Los Angeles
       airport before he was killed by an El Al Airlines security guard.

       Mir Aimal Kansi – Kansi entered the United States in 1991 and
       applied for political asylum in 1992. The INS Asylum office did not
       interview him or schedule an immigration court date since his
       application was in the pending backlog. On January 25, 1993,
       Kansi murdered two and wounded two CIA employees.

       Gazi Ibrahim Abu Mezer – The INS voluntary returned Mezer to
       Canada after he was apprehended twice in June 1996. After
       Mezer's third apprehension in January 1997, the INS began formal
       removal proceedings because Canada refused to accept him a third
       time. In April 1997, Mezer filed for asylum, in which he claimed
       that he suffered a fear of persecution if he returned to Israel. In
       June 1997, Mezer withdrew his application and told his attorney
       that he had returned to Canada.          Subsequently, Mezer was
       convicted and sentenced to life in prison for planning to bomb the
       New York City subway system.


U.S. Department of Justice                                                    17
Office of the Inspector General
Evaluation and Inspections Division
THE INS’S INCOMPLETE IMPLEMENTATION OF THE 1996
CORRECTIVE ACTIONS

        The    INS   delayed   or   failed    to complete the
        implementation of the corrective actions it agreed to
        take in response to our 1996 report. Although the INS
        indicated it would act much sooner to implement the
        recommendations, in several instances it acted only
        after the September 11, 2001, terrorist attacks. As a
        result, the INS failed to improve its removal of
        nondetained aliens with final orders.


       In 1996, we made five recommendations to improve the INS’s
effectiveness at apprehending and removing nondetained aliens. The INS
agreed with our findings, but proposed to take alternative actions to correct
several of the deficiencies we found. The INS subsequently provided
evidence to support the completion of its planned actions. See Appendix B
for a detailed discussion of our recommendations and the INS’s proposed
actions. We accepted the INS’s proposed corrective actions as responsive to
our recommendations. However, our current review found that the INS did
not follow through on several of the corrective actions. For example:

    •   The INS agreed to conduct field tests under which all aliens with final
        removal orders and all alien absconders would be targeted for
        removal. The INS informed us that a limited duration pilot project
        conducted at the Philadelphia field office had positive results, but it
        planned to conduct field tests at two additional sites before it would
        decide whether or not to expand the program. During the current
        review, we contacted INS officials both in the Philadelphia field office
        and at the INS Headquarters to obtain the results of the pilot
        projects. The INS was unable to provide any information regarding
        pilot projects at any of the three locations, and it was unable to locate
        anyone who could remember the projects.

    •   The INS proposed to notify aliens of their duty to surrender when
        they were first apprehended, as well as at subsequent hearings before
        Immigration Judges or the BIA. Aliens who did not comply with their
        final removal orders would be barred from appeals or administrative
        relief. The INS told the OIG that it had published a proposed rule to
        implement the changes. During this review, we were told by the INS
        that the rulemaking was not considered a priority and was allowed to
        lapse.



U.S. Department of Justice                                                    18
Office of the Inspector General
Evaluation and Inspections Division
     •   The INS contracted with the Vera Institute of Justice (Vera) in 1996
         to conduct a demonstration project, called the Appearance Assistance
         Program (AAP). The AAP examined whether supervised release would
         improve the court appearance rates for a sample of nondetained
         aliens, including asylum seekers, criminals, and undocumented
         workers. In a 1999 inspection, we found contract award, survey
         design, and program implementation problems with the AAP, and
         recommended that the INS carefully review the Vera findings before
         implementing Vera’s recommendations.26 Vera’s final AAP report,
         issued August 1, 2000, concluded that supervised release was a
         viable means for increasing court appearances at a lower cost than
         detention, and recommended that the INS establish a pilot
         supervised release program. Yet two years later, the INS had not
         utilized supervised release to improve its removal rate for
         nondetained aliens.

         In FY 2002, the INS was appropriated funding for a supervised
         release program, and, as of January 2003, was still drafting a
         Request for Proposals for the program. The proposed target groups
         for the planned supervised released program were asylum applicants,
         non-criminals, Legal Permanent Residents, and aliens on an Order of
         Supervision. However, there are other categories of aliens presenting
         elevated national security concerns who could be targeted for this
         program, such as aliens from the countries for which the Attorney
         General established enhanced registration requirements.27 Also, the
         planned target groups include non-criminals, but not criminals, who
         may pose a higher risk. Expanding or revising the target groups
         could enhance the potential for this program to contribute to public
         safety and national security.

     •   The INS had informed us that it would use an FY 1996 budget
         enhancement of $11.2 million to fund 142 positions for locating and
         removing alien absconders with final orders. The INS also stated it
         would enter warrants and removal orders for non-criminal
         absconders into the NCIC. When we attempted to confirm the INS’s
         actions, we found that the INS could not identify how the money was
         used. The INS also did not enter non-criminal absconders into the
         NCIC until after September 11, 2001.


26   DOJ, Office of the Inspector General, Inspections Memorandum Report, Contract
     Number COW-6-C-0038 with the Vera Institute of Justice (Report No. I-99-04), March 31,
     1999.
27   Federal Register, May 9, 2002, Volume 67, p. 77642. Registration of Certain
     Nonimmigrant Aliens from Designated Countries, implementing Attorney General Order
     No. 2638-2002.

U.S. Department of Justice                                                               19
Office of the Inspector General
Evaluation and Inspections Division
      Only after September 11, 2001, did the INS implement several
actions that it had originally agreed to take in response to our 1996 report.
These actions included reissuing its proposed rule on the duty to
surrender, establishing fugitive operations teams, and creating a new
program to enter all alien absconders into the NCIC. These three actions
are described below:

     •   On May 9, 2002, the INS revived its rulemaking and published a
         second proposed rule, entitled Requiring Aliens Ordered Removed
         from the United States to Surrender to the Immigration and
         Naturalization Service for Removal, that would broaden notification
         methods and require all properly notified aliens to surrender within
         30 days.28 The new rule also would bar properly notified aliens who
         do not comply from applying for administrative relief from removal or
         from returning legally to the United States for ten years, and would
         apply to aliens currently in immigration proceedings. According to
         the INS’s Office of General Counsel, the proposed rule would limit the
         number of “Motions to Reopen” granted by either the Immigration
         Courts or the BIA due to the mandated denial of applications for
         discretionary relief for failure to comply, thereby expediting the
         removal process once the aliens are apprehended. As of
         January 2003, the proposed rule was not final.

     •   The USA PATRIOT Act, signed on October 26, 2001, provided the INS
         with funding for 40 additional staff to create Fugitive Operations
         Teams to apprehend, process, and remove aliens with final removal
         orders. The INS used the positions to create teams in seven districts
         with large numbers of absconders (Appendix C). According to the
         INS, the teams will apprehend aliens from countries to which they
         can be expeditiously removed. The teams will focus on backlogged
         criminal cases at field offices, followed by cases held at the National
         Records Center, and finally on non-criminal aliens with final removal
         orders and cases on orders of supervision. The INS estimates that
         the 8 teams will apprehend and remove about 1,000 criminal
         fugitives in FY 2003. As of January 2003, over a year after the USA
         PATRIOT Act was signed, the INS was still in the process of hiring
         staff for the teams.

     •   On January 25, 2002, the Deputy Attorney General directed the INS,
         FBI, USMS, and the United States Attorneys’ Offices to implement the
         AAI to target for removal the more than 300,000 absconders in the
         United States. Under the AAI, backlogged cases are reviewed and
         those with sufficient biographical information are entered into the

28   Federal Register, May 9, 2002, Volume 67, p. 31157.

U.S. Department of Justice                                                    20
Office of the Inspector General
Evaluation and Inspections Division
         NCIC at the INS’s LESC in Burlington, Vermont. The AAI initially
         focused on absconders from countries with an active al Qaeda
         presence, followed by absconders with criminal records, and finally
         on non-criminal cases and cases of unverified voluntary departure.
         At the INS’s request, the USMS and FBI assist the INS in
         apprehending aliens identified through this initiative. Additionally,
         when state and local law enforcement officers encounter aliens, they
         can contact the LESC. If the alien is an absconder, the LESC faxes a
         detainer to the law enforcement officer. As of December 2002, the
         INS reported that the AAI program had resulted in 2,070
         apprehensions and 522 removals.

       In addition to the INS’s failure to implement corrective actions in a
timely manner, we also found that the INS’s policy on closing cases for
aliens who fail to appear remains problematic. In our 1996 evaluation we
found that the INS’s District Offices did not actively pursue nondetained
aliens with final removal orders who failed to appear, and that, pursuant to
a 1982 policy memorandum, the INS was closing inactive cases in several
categories. We also found that the INS was not tracking these policy-closed
cases, thus, it was unlikely that the final order would ever be executed.
The INS did not concur with the OIG’s recommendation to update the policy
because it asserted that, after extended periods of time, cases with no leads
were unlikely to result in an apprehension and could be reopened if
necessary.

        In our current review, we found that the INS is improperly closing
case files. The INS policy-closed 21 (7 percent) of the cases in our sample
of 308 nondetained aliens, and 24 (5 percent) of the cases in our sample of
470 nondetained aliens from state sponsors of terrorism. None of the 45
cases met the criteria for policy-closure defined in the 1982
memorandum.29 The INS informed us that it is now drafting a revised
policy, but was unable to provide us with a copy of this draft. The INS’s
failure to define and implement guidelines on policy-closures allows INS
districts to improperly close cases of nondetained aliens with final removal
orders.



29   According to the INS, cases are policy-closed when an alien fails to appear for a hearing
     or surrender for removal and the INS has not had contact with the alien for a specific
     period of time. The four categories and time limits after which policy-closure is allowed
     if no contacts are made include: Category 1 – Voluntary Departures (1 year); Category
     5A – Cases Referred to Investigations (1 year); Category 5B – Absconders (Criminal,
     Immoral, Narcotics, Subversives [CINS]) (5 years); Category 5B – Absconders (Non-CINS)
     (3 years).



U.S. Department of Justice                                                                 21
Office of the Inspector General
Evaluation and Inspections Division
       We found this is particularly a problem in one INS district. For
example, we found that the Los Angeles District accounted for 35
(78 percent) of the 45 policy-closures in our combined samples.
Twenty-one (60 percent) of the cases that the Los Angeles District closed
were cases of aliens from state sponsors of terrorism while almost all of the
remaining 14 aliens (40 percent) were from South America. Moreover, in 9
(26 percent) of the Los Angeles cases the aliens appeared for the hearings
when their final orders were issued. The aliens’ receipt of their hearing
notices indicates the INS was aware of the aliens’ whereabouts and had
contacted them. The INS guidance on policy-closure does not allow cases
to be closed for one to five years after the last contact. However, the INS
policy-closed these cases rather than apprehending and removing the
aliens, or waiting the required period.

       The INS’s substantial failure to complete the actions it agreed to take
in response to our 1996 recommendations, or to otherwise correct the
deficiencies we reported, hindered the INS from significantly improving its
effectiveness at removing nondetained aliens with final orders.

Recommendations

We recommend that the INS:

    3. Ensure that resources provided for apprehending and removing alien
       absconders are tracked so that they are used only as intended.

    4. Complete the current rulemaking entitled Requiring Aliens Ordered
       Removed from the United States to Surrender to the Immigration and
       Naturalization Service for Removal.

    5. Update the policy, establish stronger controls, and provide guidance
       to ensure that policy-closure provisions are used only when
       appropriate.




U.S. Department of Justice                                                  22
Office of the Inspector General
Evaluation and Inspections Division
RESOURCE, DATA, AND TRAVEL DOCUMENT PROBLEMS
CONTINUE TO HAMPER THE INS’S REMOVAL EFFORTS

         The INS continues to allocate insufficient resources to
         removing nondetained aliens.         It also faces data
         completeness and accuracy problems, as well as problems
         obtaining travel documents.      Currently, most available
         resources are directed towards removing criminal aliens,
         and inadequate attention is focused on non-criminal
         absconders.    The problems with data, especially alien
         addresses, limit the INS’s ability to find absconders. In
         addition, external barriers hamper the INS’s ability to
         secure travel documents, which impedes removal efforts.


        The INS allocates insufficient resources to non-criminal
absconder cases. Because the INS’s resources are limited, it must focus
its efforts on the greatest threats to the American public. The INS’s
priorities for removing illegal aliens are detained criminal aliens, followed by
nondetained criminals, and lastly nondetained non-criminals. During
interviews, D&R management officials confirmed that D&R officers focus on
the highest priority cases within their assigned workload. Although INS
District offices vary in their methods for assigning cases to D&R officers,
most officers are assigned all types of cases. Because D&R officers’ efforts
are focused on the highest priority, criminal aliens, officers have limited
time to pursue nondetained absconders who are not criminals.

      Although we do not question that criminal aliens deserve INS’s
attention, non-criminal absconders also may pose a security threat. The
lack of resources dedicated to pursuing this group is reflected in the low
removal rate we found in this review.

      Incomplete and inaccurate data, especially alien addresses,
limits INS’s ability to pursue absconders. Effectively processing the
millions of legal and illegal immigrants in the United States requires an
extensive information system to track and manage each case. We have
noted in a number of our reports that the INS has serious and continuing
problems with data reliability, which negatively impacts the INS’s ability to
process aliens.30


30   In 1997, we reported that Nonimmigrant Information System (NIIS) data was seriously
     flawed in content and accuracy. In 1998, we found that the Customer Management
     Information System (CMIS) was not consistently reliable because of faulty data entry,
     and that the INS had not taken the necessary steps to ensure IDENT data integrity. In
     2002, we found that nonimmigrant data in the NIIS continued to be unreliable.

U.S. Department of Justice                                                              23
Office of the Inspector General
Evaluation and Inspections Division
      Our 1996 report cited the lack of accurate address information for
aliens as an obstacle to removal. During our current review, we found
inconsistencies between EOIR’s and INS’s case tracking information for the
aliens in our sample. We found name discrepancies, cases missing from
the DACS, nationality discrepancies, and case file number discrepancies in
7 percent of our sample of 308 case files on aliens with final orders, and
11 percent of our sample of 470 aliens from states that sponsor terrorism.

       In 2001, the INS’s Office of Internal Audit reported that the INS
lacked written standards to ensure the quality of the DACS data.31 Our
interviews also show that the INS continues to face significant data
problems. The INS statistician we interviewed estimated that 20 percent of
the total cases in the INS and EOIR systems do not contain matching data,
and 195,000 files that are in the EOIR’s system are not in the INS’s system.
The INS Office of Internal Audit reported internal controls were not in place
to reconcile and correct data errors or ensure the integrity and timeliness of
data entry.

      A recent GAO report also confirmed that data problems continue
because the lack of reliable address information prevented the INS from
finding 45 percent (1,851 of 4,112) of nonimmigrant aliens with potential
awareness of foreign terrorists or their organizations.32 Without accurate
addresses, it is difficult for the INS to apprehend and remove aliens once
they are ordered removed.

       The INS can implement more practical means to find and remove
absconders. We believe the INS can be more resourceful in its practices to
identify absconders. Specifically, we found that the INS does not make the
best use of the Internet to inform the public of absconders, or to provide an
effective method for the public to report information on absconders to the
INS. For example, starting with the INS’s home page (www.ins.usdoj.gov),
finding directions for reporting violations of immigration law requires the
user to select links and navigate through eight levels of information.

       All reporting must be done to one of the INS field offices. We visited
the web pages of nine INS District Offices (including California, Florida,
New York, and Texas) and five INS Suboffices. Only 1 of the 14 pages we
visited (Washington, D.C.) instructed the public how to report information
on absconders or illegal activity through e-mail. The remaining 13 required
the information to be submitted by mail, telephone (no toll-free numbers),
or in person.

31   The INS, Office of Internal Audit, Special Data Integrity Review, 2001.
32   GAO, Homeland Security – INS Cannot Locate Many Aliens Because It Lacks Reliable
     Address Information (Report No. GAO-03-188), November 21, 2002, p.12.

U.S. Department of Justice                                                              24
Office of the Inspector General
Evaluation and Inspections Division
       Further, we examined the INS’s website and found there is no posting
of information about aliens who have outstanding removal orders (such as
the listings of convicted sex offenders, or parents who owe child support);
and no list of high-risk fugitives (such as the FBI’s most wanted list). In
fact, entering “absconder” into the INS search engine only returns six links
to Congressional testimonies.

      The INS faces difficulty obtaining travel documents from some
countries. For certain countries, there are significant barriers beyond the
INS’s control that prevent the INS from obtaining travel documents for
aliens. Some countries do not promptly process travel documents, while
others impose restrictions on return of their citizens. Without proper travel
documents, the INS cannot execute removal orders.

      In September 2002, the OIG’s audit of the INS’s Institutional Removal
Program reported 19 cases of delays by embassies or consulates to INS’s
requests for travel documents.33 The audit report listed several countries
(including Jamaica, Haiti, Guyana, the Bahamas, Ethiopia, Nigeria, India,
and China) that the INS identified as uncooperative or that frequently
delayed travel documents. During interviews, D&R officials stated they also
had problems obtaining travel documents for aliens from Yemen, Laos,
Vietnam, and Cambodia, as well as difficulty in removing Cuban nationals.

Recommendations

We recommend that the INS:

     6. Establish a program to correct the problems with missing and
        inaccurate data in the Deportable Aliens Control System and work
        with the EOIR to reconcile discrepancies between the INS and EOIR
        data systems.

     7. Implement a shared data system, similar to the Interagency Border
        Inspections System, for case tracking with the EOIR to identify and
        process aliens with final orders.

     8. Improve the utility of the INS’s website to inform the public about
        high-risk absconders and to facilitate the reporting of leads on
        absconders.




33   DOJ, Office of the Inspector General, Immigration and Naturalization Service Institutional
     Removal Program (Report No. 02-41), September 2002.

U.S. Department of Justice                                                                  25
Office of the Inspector General
Evaluation and Inspections Division
Conclusion

      As the INS prepares to move into the Department of Homeland
Security, it faces a significant challenge in determining how to address
long-term deficiencies in its ability to apprehend and remove nondetained
aliens ordered removed from the United States. In 1996, we reported that
the INS was ineffective at removing nondetained aliens with final orders,
removing only 11 percent of the aliens. This review documented that the
INS remains fundamentally ineffectual at meeting this challenge.

        Our review found that the INS has not improved its performance and
still removes only 13 percent of nondetained aliens with final orders. More
importantly, we found that the INS was even less effective at removing some
high-risk subgroups. The INS executed removal orders on only 6 percent of
the nondetained aliens from countries that the U.S. Department of State
has identified as sponsors of terrorism, and only 3 percent of denied
asylum seekers. Neglecting to pursue these types of aliens is imprudent
because we found examples of aliens in both groups who have committed
terrorist acts in the United States. Although the INS has established the
removal of criminal aliens as its highest priority, we found that the INS
removed only 35 percent of nondetained criminals. While that is higher
than the 13 percent overall removal rate for nondetained aliens, it still falls
far short of the 92 percent removal rate that the INS achieved for detainees.

       In examining the reasons for the INS’s inability to improve its
performance, we found that the INS did not implement the actions it agreed
to take in response to our 1996 report in a complete or timely manner. In
several instances, the INS acted to pursue absconders only in the aftermath
of the September 11, 2001, terrorist attacks. In other cases, the INS was
unable to document how it used funding provided by Congress to improve
the removal of aliens, and could not provide any information on pilot
programs that it had previously told us were being implemented. In
addition to its failure to take corrective actions, we found the INS faces
continued resource allocation issues and data problems, as well as external
constraints. We also found that the INS does not effectively use all means
at its disposal to improve its performance at removing aliens.

      In summary, the INS has failed to correct the deficiencies we reported
in 1996. The continued low removal rate for nondetained aliens
demonstrates that the agency has not acted to effectively increase its
performance in this critical area.




U.S. Department of Justice                                                  26
Office of the Inspector General
Evaluation and Inspections Division
                                            APPENDIX A


The Alien Removal Process

      The processing of aliens after they are apprehended can follow several
paths. Figure A depicts the INS’s apprehension, detention, and removal
process for aliens.


                                  Figure A
              INS Apprehension, Detention, and Removal Process

                                                Detention         EOIR Review
    Border Patrol
                                                                                         Allowed to stay
                                               Release on
      Criminal                                                                            in the United
                                                 Bond                                         States
    Investigators           Apprehension
                                                                     Board of
                                                  Parole           Immigration
    Immigration
                                                                     Appeals                 Ordered
    Enforcement                               Release on                                  removed from
       Agents                                    Own                                        the United
                             Inadmissible    Recognizance                                     States
                                                                  U.S. Court of
                                                                    Appeals

                                               Voluntary
                    Secondary                   Return
                    Inspection                                          Removal        INS Obtains
                                               Withdrawal
                                                                      Delayed for         Travel
                                                                      TPS or DED        Documents
     Immigration                               Expedited
      Inspectors                                Removal
                                             Initial Removal                  Alien              Voluntary
                                                 Methods
                                                                              Exits              Departure


  Source: INS Detention & Removal Service Program, Critical Influences on INS Detention, May 2001, p.4,
          and OIG analysis.

Illegal aliens who are not removed under expedited procedures, those who
do not leave voluntarily, and those residing in the United States are
apprehended and processed through the immigration system. The
apprehending officer completes the initial paperwork and creates a record
that serves as the basis for the INS’s Detention and Removal (D&R) office to
begin its alien case tracking process. Of particular importance is the Notice
to Appear, which informs aliens about the immigration process and orders
them to appear before an Immigration Judge for a hearing to determine
their eligibility to remain in the United States.



U.S. Department of Justice                                                                                A-1
Office of the Inspector General
Evaluation and Inspections Division
        D&R staff decide whether or not to detain the aliens pending their
hearings before the Executive Office for Immigration Review (EOIR).
Normally, the INS detains aliens with criminal backgrounds, those who are
a flight risk, those with mental illnesses, and those with dangerous physical
illnesses, like contagious diseases. Other aliens are nondetained, the term
for aliens who are either never taken into custody or who are released from
custody on bond, on their own recognizance, or on parole. At any point in
the process, the D&R staff or an Immigration Judge can decide to release
an alien.

      The D&R provides copies of appropriate documents to the EOIR and
INS trial attorneys. The INS trial attorneys schedule court hearings with
the EOIR and the hearing information is mailed to the aliens. At the
hearing, an Immigration Judge examines the aliens’ claims, and either
allows them to remain in the
United States or orders them
removed. Aliens ordered removed
may either waive their appeal               Select Types of Temporary Relief
rights or appeal the Immigration
Judge’s decision to the Board of          Temporary Protected Status for
Immigration Appeals and, under            Nationals of Designated States
limited circumstances, to the             (P. L. 101-649). This law authorized
Federal Courts. In addition,              the Attorney General to grant
certain aliens may be eligible to         temporary protected status (TPS) to
seek temporary relief from being          aliens from countries experiencing
removed under different                   upheaval, during which time eligible
                                          aliens will not be removed, even if
authorities (see Select Types of
                                          subject to a final order.
Temporary Relief box).
                                         Deferred Enforced Departure (DED).
        Once removal decisions are        By Executive Order or Presidential
final, including expiration of any        Memorandum, the President may
appeal periods or grants of               grant aliens from select foreign
temporary relief, the INS attempts        countries temporary protection
to obtain travel documents to the         from removal from the United
destination country so the removal        States for political or humanitarian
order may be executed.                    reasons.
Nondetained aliens are given time
to arrange their affairs, after which
they may be required to surrender to the INS for removal. Nondetained
aliens may also be granted Voluntary Departure. Under Voluntary
Departure, Immigration Judges and INS District Directors can allow aliens
up to 120 days to exit the United States on their own (up to 60 days at the
conclusion of removal proceedings and not to exceed 120 days prior to the
completion). Aliens granted Voluntary Departure are required to report
their arrival in their home country to a United States embassy.

U.S. Department of Justice                                                A-2
Office of the Inspector General
Evaluation and Inspections Division
                                      APPENDIX B


INS Implementation of the 1996 OIG Recommendations

      In response to the five recommendations in our 1996 inspection, the
Immigration and Naturalization Service (INS) identified specific actions that
it would take to correct the deficiencies we reported, and provided evidence
to support its planned actions. We accepted the INS’s proposed corrective
actions as responsive to our recommendations. However, our current
review found that the INS’s implementation of the corrective actions was
delayed or incomplete. Our analysis of the INS’s actions in response to
each recommendation follows.

        Recommendation 1: Take more aggressive actions to
        remove nondetained aliens, such as:    moving more
        quickly to present surrender notices to aliens after
        receiving final orders.

       Our 1996 report found that the INS did not always send surrender
notices to aliens in a timely manner after the final orders were issued. In
its response, the INS listed several factors that limited its ability to quickly
present surrender notices, but agreed to (1) collaborate with the Executive
Office for Immigration Review (EOIR) to implement an effective final order
notification system, (2) contract with the Vera Institute to design,
implement, and assess a demonstration project to increase the effectiveness
and efficiency of adjudication, release, reporting, and removal of
nondetained aliens; and (3) conduct further field tests under which all
aliens with final removal orders of deportation, and all alien absconders,
were targeted for removal.

       Notification System Enhancement. The INS completed the
programming necessary to establish an interface between its Deportable
Alien Control System (DACS) and EOIR’s Automated Nationwide System for
Immigration Review (ANSIR) system in 1997. Implementation of the
interface was delayed until May 17, 1999. Further, after examining the
potential ramifications of integrating the ANSIR and the DACS, the INS
concluded on March 29, 2000, that a complete integration of the two
systems could compromise the integrity of the DACS and decided not to
pursue integration.

      In our current review, we found that INS field officers can use the
DACS to view (but not modify) downloaded individual records of final orders
from ANSIR. Although the interface gives the INS an electronic notice that


U.S. Department of Justice                                                  B-1
Office of the Inspector General
Evaluation and Inspections Division
a final order of removal has been issued, the INS still cannot issue
surrender notices to aliens until it receives a copy of the final order.

      Vera Institute of Justice Supervised Release Contract. In 1996, the
INS contracted with the Vera Institute of Justice to design, implement, and
assess a supervised release demonstration project for a sample of 534
asylum seekers, criminal aliens, and undocumented workers. In its
August 1, 2000, final report on the Appearance Assistance Program (AAP),
the Vera Institute reported that it found regular supervised release to be a
viable and statistically significant means for increasing court appearance at
a lower cost than detention. The report recommended that the INS
establish a supervised release pilot project.

       In FY 1999, we conducted a limited scope inspection of the AAP and
found contract award, survey design, and program implementation
problems.B-1 Our 1999 review recommended that the INS evaluate the Vera
Institute’s final recommendations, especially the claimed costs and benefits
of expanding supervised release to other districts. That recommendation
remains valid.

       Field Test Pilot Projects. The INS informed us that it conducted a
limited duration pilot project at the Philadelphia field office to test the
effectiveness of targeting for removal all aliens with final orders and all
alien absconders. The INS stated that, based on the positive results of that
pilot project, it planned to conduct future field tests at offices of different
sizes and population mixes before determining whether or not to expand
the program. We attempted to examine the results of these pilot projects as
a part of this review, but the INS was unable to provide any information
regarding the reported pilot projects.

          Recommendation 2: Take more aggressive actions to
          remove nondetained aliens, such as delivering surrender
          notices instead of mailing them to aliens.

       In 1996, we found that incorrect addresses prevented mailed
surrender notices from reaching many aliens, and recommended that the
INS deliver the surrender notices to ensure that aliens are properly notified.
The INS proposed an alternative action of changing their procedures (which
necessitated conducting a rulemaking) to require that aliens be notified of
their duty to surrender both in the Notice to Appear, which they are given
when first apprehended, as well as at subsequent hearings before
Immigration Judges or the Board of Immigration Appeals. The INS’s

B-1   DOJ, Office of the Inspector General, Contract Number COW-6-C-0038 with the Vera
      Institute of Justice, (Report I-99-04), March 31, 1999.

U.S. Department of Justice                                                               B-2
Office of the Inspector General
Evaluation and Inspections Division
proposal also would bar aliens who did not comply with removal orders
from seeking appeals or administrative relief. Providing notice of surrender
requirements at each point in the process would prevent aliens from
delaying their removal by claiming they were not notified of their duty to
surrender.

       On September 4, 1998, the INS published proposed rule changes to
implement the new procedures. According to the INS, the rulemaking was
not considered a priority and was allowed to lapse. Only after the attacks
of September 11, 2001, did the INS publish a second supplementary
proposed rule, entitled Requiring Aliens Ordered Removed from the United
States to Surrender to the Immigration and Naturalization Service for
Removal. Published on May 9, 2002, the revised proposed rule broadens
notification methods and requires all properly notified aliens to surrender
within 30 days. In addition, aliens who fail to comply with this mandate
will be barred from applying for administrative relief from removal or from
returning legally to the United States for 10 years. The requirements of the
proposed rule would apply to all aliens currently in immigration
proceedings, as long as they receive the requisite notice. As of January
2003, the proposed rule is not final and Recommendation 2 remains open.

        Recommendation 3: Take more aggressive actions to
        remove nondetained aliens, such as taking aliens into
        custody at hearings when final orders are issued at
        hearings.

      Because our 1996 review found that the removal rate for nondetained
aliens was extremely low, we recommended that the INS increase the
number of aliens it detains after they are given final orders or develop a
better strategy for dealing with nondetained aliens. The INS identified
several procedural barriers that prevented it from taking more aliens into
custody, and proposed that, as an alternative, the OIG could examine its
progress of removing aliens. We agreed, and on July 17, 1998, the INS
provided us with a copy of its FY 1997 Removals Priority Implementation
Plan, which described the INS’s removal goals, and the Lead Official’s
Report of the FY 1997 Year-End Review, which reported the INS exceeded its
goal of 93,000 removals in FY 1997 by accomplishing 111,794 removals.

        Recommendation 4: Take more aggressive actions to
        remove nondetained aliens, such as pursuing aliens who
        fail to appear and reviewing procedures for closing cases
        for aliens who fail to appear.

       This recommendation resulted from our finding that the INS district
offices did not actively pursue nondetained aliens with final removal orders

U.S. Department of Justice                                               B-3
Office of the Inspector General
Evaluation and Inspections Division
who failed to appear, and that, pursuant to a 1982 policy memorandum,
the INS was improperly closing some inactive cases in several categories.B-2
The INS concurred in part with the recommendation and committed to:
1) use an FY 1996 budget enhancement of $11.2 million to fund 142
positions to locate and remove alien absconders who have been ordered
deported; 2) revisit and if necessary update its policy and priorities with
regard to closing inactive cases; and 3) initiate specific enforcement actions
on absconders.

      To review the INS’s action, we attempted to examine how the INS
used the FY 1996 budget enhancement of $11.2 million to create absconder
removal teams. The INS was unable to document how the funding was
used or that any absconder teams were created or deployed.

      Regarding the directive on policy-closures, in November 1996, the
INS stated that cases with no leads after extended periods of time were
unlikely to result in locating the aliens, and decided not to revise the policy
on closing cases of aliens who fail to appear. The INS guidelines allow
policy-closure after varying periods in four categories of cases. Also, even
though cases may be closed, the INS can reopen them if new information or
leads are found. We accepted the INS’s position, and closed
Recommendation 4 on March 20, 1997.

       In our current review, we found that the INS improperly policy-closed
21 of the cases in our sample of 308 nondetained aliens (7 percent), and 24
of the cases in our sample of 470 nondetained aliens from state sponsors of
terrorism (5 percent). None of the 45 policy-closed cases fell into one of the
four allowable categories. The INS informed us that, notwithstanding its
1997 response to our prior report, it is updating its policy-closure
procedures to ensure that they are more uniformly applied across districts.

          Recommendation 5: Take more aggressive actions to
          remove nondetained aliens, such as coordinating with
          other governmental agencies to make use of all databases
          available for tracking aliens who fail to appear.

       In response to this recommendation, the INS reported that it would
use an FY 1996 $11.2 million budget enhancement to establish absconder
removal teams. The INS also agreed to enter warrants and removal orders
into the NCIC; develop an automated list of criminal absconders to circulate

B-2   The categories of cases being policy-closed included those where the INS had no contact
      with the alien for more than a year after the alien failed to appear for a proceeding;
      aliens with criminal backgrounds who failed to surrender for deportation after five or
      more years with no contact; and non-criminal aliens who failed to surrender for
      deportation after three or more years with no contact.

U.S. Department of Justice                                                               B-4
Office of the Inspector General
Evaluation and Inspections Division
within the law enforcement community; and share information on
absconders with state Departments of Motor Vehicles, NCIC, the Social
Security Administration, and the Internal Revenue Service.

       However, in October 1996, the INS reported that, with the exception
of NCIC, it was not feasible to use external agency databases to perform
name searches for alien absconders. The INS proposed to continue
entering alien absconders into the NCIC; use the absconder removal teams
to experiment with ways to locate absconders; and use a computer user
group to conduct a comprehensive review of how the INS integrates its
systems with Federal, state, and local systems. Our current review found
that, prior to September 11, 2001, the INS did not establish absconder
removal teams, enter names of absconders into the NCIC, or develop an
automated list of criminal absconders for circulation within the law
enforcement community.




U.S. Department of Justice                                              B-5
Office of the Inspector General
Evaluation and Inspections Division
                                      Appendix C


Fugitive Operations Teams

      In March 2002, the INS established a National Fugitive Operations
program with the goal of eliminating the backlog of fugitive cases over the
next 10 years. All the INS Districts were expected to implement fugitive
apprehension programs to support this effort.

      As a result of the USA PATRIOT Act, the INS subsequently received
funding and positions to establish Fugitive Operations Teams. The INS
assigned teams consisting of one Supervisory Deportation Officer, three
Deportation Officers, and one Deportation Assistant to several Districts
across the United States.

        According to the INS, fugitive operations teams will pursue fugitive
aliens based on their criminal record, alien file location, and removability.
Priority I fugitive aliens, for example, are criminal alien cases with alien
files located in INS field offices, while Priority II fugitive aliens have their
alien files in storage at the National Records Center. Finally, Priority III
fugitive aliens are non-criminals.




U.S. Department of Justice                                                    C-1
Office of the Inspector General
Evaluation and Inspections Division
                                      Appendix D


List of Acronyms

AAI – Absconder Apprehension Initiative
AAP – Appearance Assistance Program
ANSIR – Automated Nationwide System for Immigration Review
BIA – Board of Immigration Appeals
BOP – Federal Bureau of Prisons
D&R Office – Detention and Removal Office
DACS – Deportable Alien Control System
DED – Deferred Enforced Departure
DHS – Department of Homeland Security
EOIR – Executive Office for Immigration Review
FBI – Federal Bureau of Investigation
FY – Fiscal Year
GAO – U.S. General Accounting Office
IIRIRA – Illegal Immigration Reform and Immigration Responsibility Act
INA – Immigration and Naturalization Act
INS – Immigration and Naturalization Service
LESC – Law Enforcement Service Center
NCIC – National Crime Information Center
OIA – Immigration and Naturalization Service’s Office of Internal Audit
OIG – Office of the Inspector General
TPS – Temporary Protected Status
USAO – United States Attorney’s Office
USMS – United States Marshals Service




U.S. Department of Justice                                                D-1
Office of the Inspector General
Evaluation and Inspections Division
